U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

June 24, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Tennessee General Assembly, et al. v. U.S. Department of State, et al.,
No. 19-1137

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 13,
2020, and placed on the docket on March 17, 2020. Although the government waived its right to
file a response, the Court has requested that a response be filed. The government’s response is now
due, after one extension, on July 13, 2020. We respectfully request, under Rule 30.4 of the Rules
of this Court, a further extension of time to and including August 12, 2020, within which to file
the government’s response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Noel J. Francisco
Solicitor General

19-1137
TENNESSEE GENERAL ASSEMBLY, ET AL.
U.S. DEPARTMENT OF STATE, ET AL.

JULIE AXELROD
401 HOLLAND LANE, APT 1414
ALEXANDRIA, VA 22314
703-888-2442
JBA@CIS.ORG
JOANNE E. BREGMAN
ATTORNEY
6049 ROBIN HILL ROAD
NASHVILLE, TN 37205
615-589-9489
JEBREGMAN@GMAIL.COM
JOHN J. BURSCH
BURSCH LAW PLLC
9339 CHERRY VALLEY AVENUE SE
#78
CALEDONIA, MI 49316
616-450-4235
JBURSCH@BURSCHLAW.COM
LAWRENCE J. JOSEPH
1250 CONNECTICUT AVE., NW
SUITE 700-1A
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM
RICHARD THOMPSON
THOMAS MORE LAW CENTER
PO BOX 393
ANN ARBOR, MI 48106
743-827-2001

